                                                      NATIONAL SCIENCE FOUNDATION
                                                       OFFICE OF INSPECTOR GENERAL
                                                         OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

11   Case Number: A02040029
                                                                                    11          Page 1 of 1



          Our office received an allegation that the subject1plagiarized text in an NSF proposal.. The
          institution conducted an investigation and provided us with a copy of its investigation report.
          The institution determined that the subject had committed an act of misconduct in research. The
          investigation report recommended, and the institution took the following actions:

                    Sent a letter of reprimand from the Provost of the University to the subject
                    Required the subject to complete a course on ethics and integrity in research and rules of
                    citation of source material
                    Suspended the subject from submitting research proposals to state and Federal agencies
                    for a period of one year
                    Required written certification by the subject's department chair or other university
                    official for a period of two years thereafter affirming that any proposal submitted by the
                    subject contains no plagiarism


Il        Additionally, the institution did not renew the subject's academic contract.

          Our review of the institution's investigation report determined that the investigation was
          thorough, fair and accurate, and we concur with its conclusions. Based on the institution's report
          and our own investigation, we recommended that NSF find that the subject committed research
          misconduct, and take the following three actions:

                    Issue a letter of reprimand informing the subject that NSF has made a finding of research
                    misconduct against him.

                     Debar the subject from participation in Federal programs for a period of one year from the
                     date of an agency finding of research misconduct.

                     Require certification and assurances for two years following the end of the debarment
                     period by a responsible official of the employer that proposals submitted by the subject
                     are free of plagiarism.

           Our investigation report, the NSF Deputy Director's letter reflecting his decision, and this memo
           constitute the closeout for this investigation.




 NSF OIG Form 2 (1 1/02)
                                                                                                                             .   .
                                                                                                                             .   .                                    ...
                .               .                                      .   .                  .        NATIONAL SCIENCE FOUNDAWN
 . .
,.:         .       .       .. . -              I    . .   .       .                 .      .                   4201 WILS'ON ~OULNARD                                                                             .       .
. . . ..        .. ..                                      .   .   .                     . .                   ARLINGTON, VIRGINIA 22230                     .   .. . .
               . .. . . .                                                                  . .
..
       ..
            .. ..                                                                    .    .                                                                      . . .

                .           .                                                                                                                                .    .
       .                .
                            .               .
                                                                                                       .   .                                     ,   .
 .. .. : .                                                                                    .    .                                                                                              .       .
                                    ..          ..    .                                  . . . .
                                                     . .                                                                                                           .          .       .
  . ....            .                       ...                                                                          . .
                            . . . . .                                                                                                .   .   .                        .   .
                                                                               ...                                                                                            .               .




                                    .   .                                                                                                                                         .       .           .
                                                Re: ~ o t k of
                                                            e. . ~ i ~ c o n d u c t :Science
                                                                                      in      Determination             ..




                                                                                                                                                                                              -           .


                                             TheNational ~ c i e n i Foundation
                                                                     e          (NSF) has concluded that you committed miscohduct in
                                                                                                                                                                                                              .       .
                                                                                                          l s vou submitred to NSF in
                                            .science when vou engaeed in daziarism in two ~ r o ~ o s ' athat


                                            NSF's research misconduct regulation in effect at the time the misconduct occurred defined
                                            "misconductn to include "plagiarism, or other serious deviation from accepted practices in
                                            proposing, canying out, or reponing resuhs from activities funded by NSF." 45 CFR $689. I (a).
                                            The NSF's Ofice of Inspector General's Investigation Report establishes that you copied text
                                            from several source documents in your proposals, without proper attribution and without the
                                            authors' permis~ion. The repon indicates that you did not provide citations to mosl of &e source
                                            documents. Although you did provide a citation to one of the source documents, you did not
                                            distinguish the copied material in a manner which apprised the reader of the extent to which you
                                            verbatim copied text from this source document.

                                                By submitting proposals to NSF that copy text of another without adequate attribution and
                                                distinction, and without the author'spemission, you misrepresented someone else's work as
                                                your own. It also undermines the integrity of your proposal.

                                                1 therefore have determined that your copying in NSF proposals without providing appropriate
                                                attribution to the original authors' worksconstitutes plagiarism and a significant departure from
                                                acce ted practices under NSF's regulations. See 45 CFR $689.2. 1 also agree with-

                                        P                     onclusion that you acted recklessly when you failed to properly cite to he source
                                                 ocumen s or distinguish the copied.material;.                        .                                  .




                                                1n.decidingwhatresponse is appropriate, NSF has considered the seriousness of the misconduct,
                                                whether it was deliberate or careless, whether it was an isolated event or part of a pattern, and
                                                                                               .   .

                                                                                      ..   '
                                                                                                                                                                           ..
            whether the misbonduci had a significant impact' on theresearch i e k d , ~esearchsubjeCts,other                      , '             :            .'      '   .   , ,   .
                                                                                                           .                  .
            researchers, institutions, or the public welfare. 45 C.F.R.$689.3.       .'    ..      .                                                       . . ..
                                                                                                               . .

            11 is disconcerting that you submitted plagiarized text on more than one:oceasion to the
            Foundation. However, 1. have considered several mitigating factorsin this case: First, you          ,    '       .,



            cooperated in the investigation and accepted responsibility for your miscondiit.. Second, you .                                       :
.. ,        immediately notified two other Federal agencies about your failure to include p r q e r citafions:in,                 ,           .


. ..
            proposalsthat you had submitted to them. Third: at the timethat themisconduct occurpcd, you
            were a relatively inexperienced researcher. Founhthe majority of the plagiarized material was-
                                                                                                                                                                           .
            in .the background section of your proposalsand it came from published, sources. Fifth, I believe                                                                   .
                                                                                                                                                                                .        .
            that you acted recklessly rather' than intentionally. 1 am also taking into accountthe measures
            taken by your University to address themiscond~ci,including pohibiting you from submini,ng                            .                   .
            proposals toFederal agencies for the past year.

            In light of these mitigating factors, 1 am issuing this letter as an official reprimand.: l i addition, if                        -.

            you are the principal investigator or co-piincipal investigator on any propokal submitted to the
            National Science Foundation within two yearsfrom the date of this letter, you must submit t o the                                     ..
                                                                                                                                                      -            .
            Associate Inspector General for l n r e ~ t i ~ t i o n0ffic;
                                                                   s,     of Inspector General, National Science                  .       '




            Foundation, 4201 Wilson Boulevard, Arlington, Virginia, 22230, a copy of such proposal,
            together with a m e n certification indicating that, to the bestof your knowledge, your proposal
            does not contain anything that violates.NSF's scientific misconduct regulations at 45 CFR Pztrt .                           .                      .                ,



            689.                                            ..    .                                                .                  .

                                                                                                                         .                        .
            You indicate that you have learned a valuable lesson from this experience and 1hope that this.
            will be an anomaly in your career. This finding of misconduct in science does not preclude you
            from applying for-NSFfunding in the future or serving as a merit reviewer.
                                                                                                       .   .


            Under NSF's regulalions, you have 30 days after receipt of this letter to submit an appeal of this
            decision, in writing, to the Director of rhe Foundation. 45 CFR $689.1 ~ ( a ) .Any appealohould                                  :


                                                                                                                                                          ..
            be addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
            ~ r l i n ~ oVirginia
                         n,       22230. For your informalion we are attaching a copy of the applicable
            regulations. if-you have any questions about the foregoing, please call ~awrenceRudolph,
            General Counsel, at (703) 292-8060.

                                                     Sincerely,       -
                                            -        Joseph Bordogna
                                                     Deputy Director

             Enclosures (3)
             ln+estigiti.ve Report
       ..    NSF's ~is'conductin Science Regulations (2)
                                         Summary

The Office of Inspector General (OIG) has concluded that the subject1knowingly
plagiarized from published works, and as part of that plagiarism, failed to cite those
publications, in order to save time and minimize his effort in the preparation of text for his
proposals. The subject's plagiarism appeared in two NSF proposals, and was part of a
pattern of action that resulted in similar plagiarism in proposals submitted by the subject to
                                           . The subject's university conducted an
investigation that concluded with a finding of misconduct in research by a preponderance
of the evidence. We conch with that finding.

We recommend that NSF take the following actions as a final disposition in this case:

       NSF should issue a letter of reprimand informing the subject that NSF has made a
       finding of research misconduct against him.

       NSF should debar the subject fiom participation in Federal programs for a period of
       one year from the date of an agency finding of research misconduct.

       NSF should require certification and assurances for two years following the end of
       the debarment period by a responsible official of the employer that proposals
       submitted by the subject are free of plagiarism.

                                       OIG's Inquiry

On April 18,2002, our office received an allegation that text in a submitted NSF proposal2
(Tab 1) was plagiarized from several published sources. We compared the proposal with
the alleged source material and established that there were identical sections of text in the
proposal and the source documents. We also found several additional apparent instances
of plagiarism; the source documents for each instance of alleged plagiarism were not
referenced in the proposal.

Source documents3 for the alleged plagiarism are found at Tab 2, with overlapping
portions of text highlighted and cross-referenced to the proposal at Tab 1. Small changes
in verb tense and the occasional insertion of additional sentences in the text sections
duplicated within the proposal were noted in comparisons.

We wrote to the subject and the two co-PISof the submitted proposal on June 6,2002 and
asked for their perspectives on the alleged plagiarism. The letter to the subject is at Tab 3;
identical letters were sent to the co-PIS. The co-PIS both stated (response letters received
via email, and attached at Tab 4) that proposal sections containing the duplicated material
were composed by the subject. In his written response of June 12,2002 (Tab 5), the
subject assumed responsibility for the duplicated texts. The subject also sent a
supplemelitaryresponse letter dated June 13,2002 also included at Tab 5.

The subject states that the sources of the duplicated text are neither cited nor referenced in
the submitted proposal (with the exception of one source.which appears as a reference for a
figure and not the text d ~ ~ l i c a t e dBe
                                           ) . ~also states that since the text was used for general
descriptions already known in the scientific communities, he did not consider it necessary
to cite the references from which the texts were taken.'

Two of the source documents (Documents 2 and 5) are authored by researchers at a
national laboratory where the subject was previously employed, and with whom
collaborations were proposed. With respect to duplication of text fiom these publications,
the subject suggests that since the collaboration was apparent within the body of the
proposal, he did not consider providing citations to papers of collaborators from which text
in his proposal was taken.6

In the supplementary response letter from the subject dated June 13,2002 (Tab 5), the
subject further explains his duplication of text by writing that:

        Since time was so limited, I was mainly focusing on the main body of the project
        description. I couldn't pay much attention to introduction of the proposal and explanation
        of the ... model. I barely finished the proposal on the last day of the deadline of the
        proposal. I only reviewed the main body of the project description. If I had enough time
        to prepare the proposal, I must not have made a stupid judgment on citation by myself. I
        must have cited properly on the sentences you highlighted.

A second letter was sent to the subject on June 19,2002 (Tab 6) that asked 1) if the subject
had specific permission to use the verbatim passages of text duplicated from the source




Figure 2 in the proposal,which is Figure 2 in the document. There is no citationfor the duplicated text that
documents authored by the researchers at the national laboratory, and 2) specifically how
the extensive verbatim passages from publications neither cited nor referenced came to
appear in the proposal.

The subject's response to our second letter is attached at Tab 7. In response to the first
additional question, the subject states that before departure from the national laboratory, he
had several meetings with his colleagues to discuss future collaborations. The subject
asked that NSF consider these meetings as a type of oral permission for the use of verbatim
passages of uncited text.7

In response to the second question, the subject again states that because the plagiarized text
was for a model widely used in the field, and because the general facts and needs in the
field had been well identified, he "didn't quite consider putting citations on the
sentences."'

In his second response letter, the subject also writes specifically that: "There is no
additional text in the proposal that was copied from another source but is not properly
distinguished and attributed . . . . I have never knowingly used any material that was not
properly distinguished and attributed in any other proposals for which I was the Principal
~nvesti~ator."~   However, a W h e r analysis of the proposal, completed after the subject's
second response was received, showed that an additional six lines of text were taken
verbatim from another article (plagiarized text highlighted and cross-referenced to the
proposal).10 This source document (Tab 8) is also not referenced withn the proposal.

We then examined other NSF proposals submitted by the subject." The original proposal
examined in conjunction with the allegation is called proposal A, and these additional
proposals examined in the inquiry are termed proposals B, C, and D. Proposals B and C
did not appear to contain any text duplicated from published documents. Proposal D (Tab
9), however, contains about 35% text in dommon with proposal A. The overlapped text
includes some of the same verbatim plagiarized passages as in proposal A, and these
source documents are, as in proposal A, not included as references in proposal D. The
plagiarized texts are highlighted and cross-referenced, as before. An additional passage
(approximately 12 lines of text) found in Proposal D is apparently duplicated fiom another
source document (Tab 10).12




£?om source documents not cited in either proposal. There is overlap in the plagiarized
texts, but there is also plagiarism unique to each proposal. Based on this evidence, our
office concluded that there was substance to the allegations and that a full investigation
was warranted. We contacted the subject's university to refer the allegations.

                                     The University's Actions

We referred the investigation to the subject's university by a letter (Tab 11) dated
October 1,2002, and sent to the Vice Provost for Research at the university.13 The
university used the information in our referral letter as the basis for their inquiry, and
concluded that an investigation was warranted. The university investigation began
November 5,2002.

We received a copy of the university's investigation report on April 25,2003 (Tab 12,
which also includes a copy of the university policy). A cover letter from the Executive
Vice President and ~ r o v o s tdated
                                ' ~ April 18,2003 (Tab 13) was received May 5,2003; this
letter described actions to be taken by the university in response to the investigation report
provided by the committee. We summarize the university actions and adjudication below.

The university committee interviewed the subject on December 17,2002. In that
interview, the subject admitted that the plagiarized passages were not properly cited in his
NSF proposals.'5 No explicit evidence was provided to the committee that he had
permission to use those passages in h s proposals. He also stated that he did not cut and
paste the text from the documents (all of which are available on the web), but instead
retyped the text into h s proposal.'6 The subject suggested to the committee that proposals
should be subject to different standards of scholarship than publications because the
audiences for proposals and publications are different. Specifically, the university
investigation report states (Tab 12, investigation report, page 3-4, marked): "When pressed
further on whether proposals should be treated differently from papers [the subject] replied
that yes they should because proposals cannot be published and the reviewers know the




  Information fiom investigation report (Tab 12, page 3A2 (Appendix 3, page 2)); location is marked.


                                                                                                       4
material."17 The subject indicated to the committee that two proposals submitted to other
Federal agencies also included the same plagiarized text identified within the NSF
proposals, and that he had contacted the program officers at those agencies to provide
corrections to his submissions by providing correct attributions for the text.'*

The university investigation committee concluded that each of the instances of text
duplication in proposals A and D constituted an instance of plagiarism by the subject.lg
However, the committee questioned whether the subject had a clear understanding of
scholarship standards and practices of proper citation. The committee cited the subject's
contention that the plagiarized materials were in the introduction of the proposal and
provided only background and' context asevidence of a flawed understanding of citation
expectations and practices. The committee therefore concluded that

        considering the indications of the state of mind cited any individual instance of
        plagiarism in the December or February Proposal could reasonably be judged to
        have been an unwitting or careless act. However, the pervasiveness of the
        instances of plagiarism, 25 in the two proposals, increases the severity of this
        finding. The committee therefore concludes that, even considering the mitigating
        factors, taken in aggregate the plagiarism in the two proposals constitutes
        recklessness on the part of ... [the subject].20

        The investigation committee therefore unanimously concluded that the collective
actions of the subject "represent reckless disregard of these standards of scholarship and as
such constitute misconduct in re~earch."~'

The university investigation committee recommended the following actions (university
investigation report (Tab 12), page 6):

         A letter of reprimand from the Provost of the University be sent to the subject
         The subject be required to complete a course on ethics and integrity in research and
         rules of citation of source material
         The subject be suspended fi-om submitting research proposals to state and federal
         agencies for a period of one year
         Written certification by the subject's department chair or other university official
         be required for a period of two years thereafter affirming that any proposal
         submitted by the subject contains no plagiarism




university investigation report (Tab 12).
l9 University investigation report, page 4. marked with #.
20 University investigation report, page 5, as marked.
21 University investigation report, page 6, as marked.
    The subject's response to the university investigation report was dated April 14,2003, and
    is included within the report (page 6A1 of the report at Tab 12). The subject stated that he
    understood the findings and recommendations of the committee.

    The Provost accepted the report of the university investigation committee. In a letter (Tab
    13), the Provost detailed the adjudicative actions of the university taken in this case:

               non-renewal of the subject's academic contract with the university, effective at the
               end of the 2004 academic year
               prevention of submission of any grant proposals through the university
               review of all research publications submitted by the subject
               completion by the subject of a course on ethics and integrity in research

    We sent a letter to the universityon May 22,2003 asking for issues of clarification on the
    burden of proof used by the investigation committee in reaching its conclusion, and
    specifically whether the investigation committee examined any other proposals submitted
    by the subject for instances of plagiarism. The university replied by letter on July 14,2003
    that the burden of proof used by the investigation committee was a preponderance of the
    evidence, and that the committee did not evaluate instances of plagiarism in any but the
    two NSF proposals identified in the referral letter (Proposals A and D).

                                                   OIG's Assessment

    NSF's misconduct regulation, 45 C.F.R. part 689, was revised in 2002. The alleged
    plagiarism by the subject occurred before April 17,2002, the effective date of NSF's
    revised regulation. Accordingly, the university investigation committee applied, and we
    apply, the definition of "misconduct" fiom the version of NSF'S regulation in effect when
    the misconduct occurred. A finding following the procedures of the current regulation (45
    C.F.R. 6 689.2(c) (2002)) requires that:

               (1) There be a significant departure fiom accepted practices of the relevant research
               community, and (2) The research misconduct be committed intentionally, or
               knowingly, or recklessly, and (3) The allegation be proven by a preponderance of
           .   the evidence.

,   We believe that the university's investigation report is accurate and complete, and that the
    committee followed reasonable                   NSF OIG therefore accepts the r ort of the
    university's investigation committee in lieu of conducting its own investigation.T
                                                                                     3


                                     Departurefrom Accepted Practices

    The subject submitted two proposals to NSF that contain multiple instances of plagiarism,
    with text taken verbatim fiom multiple source documents. The subject did not cite the

    22 45 C.F.R. 5 689.9(a).
    23
       We accept the conclusions of the university investigation committee with the exception discussed in this
    report under "Intent."
sources from which the texts were taken, nor differentiate the plagiarized text in any way
                                      a l The extent of the ~lagiarismin NSF ~ r o ~ o s a l s
from the remainder of the ~ r o ~ o stext.



both NSF proposals submitted by the subject, but some plagiarized documents are unique
to each proposal. We therefore conclude that the preponderance of the evidence shows
that the subject did plagiarize significant amounts of text, and different texts, into each of
two proposals submitted to NSF. The university investigation committee finds that the
instances of lack of proper citation depart significantly from the standards of sch0larshi~,2~
and we concur with that finding.

                                             Intent o f the Subject

We believe that the subject's intent was to save time and effort in proposal preparation by
using, without attribution, the words of others in providing the requisite background
material for his proposed research. Our assessment of intent is supported by the subject's
own words in describing his actions under a perceived time pressure of a deadline for
proposal submission.

The university investigation committee concluded that the extent of repetition of the
plagiarism elevated the subject's actions to a significant departure from the standards of
scholarship in the field, and that the subject's conjoined actions were reckless. However,
the subject stated to the university committee that he retyped each of the sections of
plagiarized text as opposed to cutting and pasting the text from electronic files (see
footnote 16). It is difficult to conceive that the subject could retype verbatim text from the
work of others, and not consider this a bbknowing"action. We conclude that each act of
retyping verbatim text represented a knowing act of plagiarism, and that the preponderance
of the evidence shows that the individual knowingly plagiarized extensive amounts of text
into two separate NSF proposals.

                                                Burden of proof

The subject admits to the exte                                      rate NSF proposals,
and in proposals submitted to                                        The university
investigation committee concludes, and we concur, that the allegations of plagiarism are
proven by a preponderance of the evidence.

                                             Subject's Response

A draft copy of this report was sent to the subject; his comments were conveyed in a letter
dated September 10,2003 (Tab 14). In his defense, the subject cites his other two NSF
proposals that were examined, which did not appear to contain any plagiarized text, as
evidence of his proper citation practices when there was a greater amount of time for
proposal preparation. The subject also notes his efforts to correct the attributions related to

24   University investigation report, page 6, as marked.
the same textual plagiarism in proposals submitted to
.
not part of a pattern of behavior.
                                                                   -
         In conclusion, the subject asks that his plagiarism be considered unintentional and


The subject's response to our draft report reiterates issues that have previously been
addressed within his letters to us as part of the OIG inquiry and his interactions with the
investigation committee of the university. They are addressed within the report of the
investigation committee and within our recommendations below.

                                          OIG Recommendations

In deciding what final actions are appropriate when misconduct is found, NSF officials
should consider:

           (1) How serious the misconduct was; (2) The degree to which the misconduct was
           knowing, intentional, or reckless; (3) Whether it was an isolated event or part of a
           pattern; (4) Whether it had a significant impact on the research record, research
           subjects, other researchers, institutions or the public welfare; and (5) Other relevant
           circumstances (45 C.F.R. 5 689.3(b)).

We conclude that the subiect's ~ l a ~ a r i swas
                                               m serious: the subiect acted knowin~lvwhen

The subject claims that he was constrained by time in preparation of his proposal.
However, these NSF proposals were submitted seven weeks apart, undercutting an
explanation based on deadline pressure. The subject in his letters to NSF asks that we
consider his discussions with his potential collaborators as a "type of oral permission" to




                                                                                         -
use text verbatim fiom the publications of those proposed collaborators at the national
laboratory (see footnote 7). However, the subject provided no evidence to the university
investigation committee that he had permission to use text from publications of his
proposed collaborators, or fiom the authors of any of the other source documents.25 We
must conclude that the subject's actions of using that text verbatim, without permission,
attribution, identification, or citation, were knowing and intentional.

The subject provided a statement to the university committee that disclosed that the same
plagiarism identified in the NSF proposals also appeared in proposals submitted
.                                Upon receipt of the original inquiry letter from NSF OIG,
the subject contacted program officers at those agencies to make corrections in the
attributions of the submitted proposals. Based on the extensive plagiarism in two
proposals submitted by the subject to NSF, and the admission by the subject of plagiarism
in proposals submitted to 1                                        , we conclude that the
plagiarism by the subject was part of a pattern of behavior.

Although both NSF proposals were declined, and the university investigation report
indicates that the proposals to the other Federal agencies were also declined, program

25
     Information from the university investigation report, page 3; location is marked.
officers and reviewers invested their time and'efforts to review and consider four different
proposals of the subject that were significantly plagiarized. The co-PIS on one NSF
proposal have been drawn into our inquiry of allegations of misconduct.

In consideration of other circumstances, we note that the subject suggested that proposals
are not held to the same standards of scholarshp as are publications. However, the NSF
Grant Proposal Guide (NSF 01-02) states clearly and specifically (page 2) that:

        NSF expects strict adherence to the rules ofproper scholarship and attribution.
        The responsibilityfor proper attribution and citation rests with authors of a
        proposal; all parts of the proposal should be prepared with equal care for this
        concern. Seriousfailure to adhere to such standards can result in findings of
        misconduct in science.

The subject's lack of experience in the preparation of proposals by the subject is also
noted, but we conclude that this cannot be used to excuse such serious and extensive
plagiarism. As described earlier, two other proposals submitted to NSF by the subject
were examined and appeared to contain no plagiarism. We also examined one sole-
authored publication by the subject and found no evidence of plagiarism. We note also the
subject's voluntary contacts with program officers overseeing the other proposals in which
plagiarism appeared, and his cooperation with our own inquiry and the university
investigation.

The subject's employment contract at the university will terminate at the end of academic
year 2004. The subject may seek to secure Federal fimding after moving to another
university or to the private sector. We conclude the subject's plagiarism warrants a finding
of research misconduct. The university's adjudication actions are appropriate, but do not
adequately protect the Federal government's interests should the subject again seek Federal
funding. Therefore, we recommend that NSF take the following actions as final
disposition in this case:

         NSF should issue a letter of reprimand informing the subject that NSF has made a
         finding of research misconduct against him26.
         NSF should debar the subject from participation in Federal programs for a period of
         one year fiom the date of an agency finding of misconduct in science and
         engineering27.
         NSF should require certification and assurances for two years following the end of
         the debarment period, by a responsible official of the employer, that proposals
         submitted by the subject are free of plagiarism28.




26 A letter of reprimand to the individual is a Group I action (45 C.F.R. 5 689.3 (a)(l)(i)).
27 Debarment of an individual is a Group 111 action (45 C.F.R. 5 689.3(a)(3)(iii)).'
28
   Certification of proposals by a responsible official is a Group I1 action (45 C.F.R. 5 689.3(a)(2)(ii)).
